NO. _______________

IN THE
SUPREME COURT OF THE UNITED STATES
OF AMERICA

DAVID SMITH-GARCIA, formerly known as David Garland Atwood, II
Petitioner-Defendant
v.
UNITED STATES OF AMERICA
Respondent

On Petition for Writ of Certiorari from the
United States Court of Appeals for the Fifth Circuit.
Fifth Circuit Case No. 18-60021

CERTIFICATE OF SERVICE
I, Wayne Milner, appointed under the Criminal Justice Act, certify that
today, August 31, 2020, pursuant to Rule 29.5 of the Supreme Court Rules, a copy
of the Petition for Writ of Certiorari and the Motion to Proceed In Forma Pauperis
was served on Counsel for the United States through the United States Postal
Service by first-class mail, postage prepaid, addressed to:
The Honorable Jeff Wall
Acting Solicitor General of the United States
Room 5614, Department of Justice
950 Pennsylvania Ave., N.W.
Washington, D.C. 20530-0001
1

I further certify that all parties required to be served with this Petition and the
Motion have been served.

/s/ Wayne Milner
Wayne Milner
Attorney at Law

